   Amtrak’s Strategic Planning

        Evaluation Report E-10-01


              August 17, 2010




          Evaluation Report Issued by:

NATIONAL RAILROAD PASSENGER CORPORATION
      OFFICE OF INSPECTOR GENERAL
             10 G STREET, N.E.
          WASHINGTON, DC 20002
                                                  NATIONAL RAILROAD PASSENGER CORPORATION

                                                                          10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                              tel 202 906.4560 fax 202 906.4564




                                           Evaluation Report #E-10-01

  Date        August 17, 2010                                From      Ted Alves

   To         Joe Boardman, President and CEO         Department       Office of Inspector General

                                                          Subject      Report on Amtrak’s Strategic
                                                                       Planning
                                                                cc     All Executive Committee Members
                                                                       Jessica Scritchfield
Message
          This memorandum presents the results of our evaluation of Amtrak’s Strategic Planning
          documents and planning process.

          In a 2005 report, the Government Accountability Office concluded that “Amtrak lacks a
          meaningful strategic plan that provides a clear mission and measurable corporate-wide
          goals, strategies, and outcomes to guide the organization.” 1 Since that report, Amtrak has
          struggled to implement an effective strategic planning process. Although multiple
          planning efforts were initiated between 2005 and 2008, none of them resulted in a
          comprehensive strategic plan. In early 2008, Amtrak’s leadership participated in a
          detailed SWOT (Strength, Weaknesses, Opportunities, and Threats) analysis intended to
          lead to a strategic plan, but no final strategic plan resulted from this. In October 2009,
          after a change in Amtrak leadership, Amtrak took a significant step forward when it
          issued a strategic guidance 2 and a five year financial plan 3 . Amtrak recognized that,
          while important, these documents do not represent a comprehensive strategic plan.

          Originally, we planned to evaluate Amtrak’s Strategic Planning process and the 2009
          planning documents by comparing and contrasting the process and plans to “best
          practices” in strategic planning. We had completed an extensive review of current
          models and practices in Strategic Planning when we learned that Amtrak management
          was convening an executive leadership group “…to create the future service and

          1
            GAO-06-145, Amtrak Management, Systemic Problems Require Actions to Improve Efficiency,
          Effectiveness, and Accountability. October, 2005.
          2
            Amtrak’s New Mission
          3
            FY2010-2014 Five Year Financial Plan
Office of Inspector General
Page 2


organizational vision for the company.” We decided that, rather than continuing our
evaluation of Amtrak’s past process and plans, it was best to share with management our
observations of how Amtrak’s current plans and proposed new initiative compare with
what we identified as the “best practices” 4 in Strategic Planning.

On June 29, 2010, we presented the attached briefing to Amtrak’s senior executive
leadership team in order to inform them of our observations and recommendations -
Exhibit A.


SCOPE & METHODOLOGY

In developing a list of “best practices” in Strategic Planning, we included lessons learned
from recent classes on Strategic Planning, researched current approaches being taught at
top business schools, and interviewed a leading railroad on its practices. In order to share
our research and observations with Amtrak management before they embarked on their
initiative to create a service and organizational vision, we limited the scope of our review
of Amtrak’s Strategic Plan and Planning process to the planning documents Amtrak
produced in October 2009 (Strategic Guidance and FY2010-2014 Five Year Financial
Plan) and the charter for the new initiative.


SUMMARY OF RESULTS

While the establishment of an Executive Committee Leadership Team to “…create the
future service and organization vision for the company” is a great move forward, the
effort does not incorporate key elements of a strategic planning process and does not
explicitly call for the development of a Strategic Plan. Developing a strategic plan could
assist the Leadership Team in effectively aligning organizational efforts around a single
vision and ensuring the effective use of resources.

Our research shows that there is no one right way to conduct strategic planning, but there
are common elements among the various processes that drive effective strategic plans.
These common elements include an executive commitment, assessment of the internal
and external environment, and defining a vision, goals, and strategies to accomplish the
organization’s mission. Creating a future service and organizational vision without an
effective strategic planning process will not provide the Leadership Team with adequate
4
 These are the common elements we derived from our research of what is currently being taught and
written on the subject.
Office of Inspector General
Page 3


assurance that the company’s resources are focused on the right programs and activities
to accomplish its mission.

We recommend that Amtrak develop a strategic plan utilizing a strategic planning
process that incorporates the key elements of effective strategic planning. In commenting
on a draft of this report, Management agreed with this recommendation and committed to
preparing a timeline for the development of a strategic plan by October 19, 2010.


BENEFITS OF STRATEGIC PLANNING

There are many benefits in implementing a strategic planning process and developing a
Strategic Plan. A major benefit of a strategic planning process is that it aligns
organizational efforts around a single vision. The process helps leadership to make
choices on strategic initiatives and to determine priorities. From there, it fosters the
development of realistic program and project plans, and therefore increases goal
attainment.

In addition, an effective strategic planning process ensures the effective use and
alignment of resources. It also serves as a communication tool for all stakeholders, and
helps facilitate mid-course corrections by
focusing on end goals.


KEY ELEMENTS OF EFFECTIVE
STRATEGIC PLANNING

Developing a strategic plan is not easy.
It takes time and executive commitment.
We learned that there is no one right way
to conduct strategic planning. We also
found that terminology is not consistent
among different sources; however,
common elements can be identified
among the different approaches. The
diagram to the right outlines the common
key elements of effective strategic
planning we gathered from our research.     Key Elements of Effective Strategic Planning
Office of Inspector General
Page 4


OIG OBSERVATIONS

The following briefly describes each of the key elements of an effective strategic
planning process that we identified during our research and compares each element to
what is contained in Amtrak’s planning documents or in the charter for its new leadership
initiative.

Mission: A Mission statement should clarify the type of business you are in, the
customer you serve, the purpose of your existence, and the geographic scope of your
activities. It should be a brief and clear statement or set of statements that define the type
of work that will be undertaken for whom, for what reason, and where. Plans based upon
a less than clear mission could lead to flawed strategies and misdirection of activities
throughout the organization.

Amtrak’s Mission statement in its Strategic Guidance is fairly comprehensive and
incorporates the key roles assigned in PRIIA. However, the mission statement in the
FY2010-2014 Five Year Financial Plan is not as comprehensive as the one in the
Strategic Guidance.

Vision: A Vision identifies where the organization wants to be and what results it seeks.
It should be ambitious and create enthusiasm and commitment. A clear Vision is
essential to help identify the goals, strategies, and corresponding programs and activities
that matter most to the organization. Amtrak’s current planning documents do not appear
to have a clear Vision. Amtrak’s goals in its planning documents suggest a Vision of
“improvement in several areas,” but without a clear change in direction or focus. The
new Executive Committee Leadership Team charter does anticipate creation of a new
Vision.

Goals: The Goals should be clear, outcome oriented, time-bound, and measurable.
Following the creation of a clear Vision, an effective strategic plan should include a set of
Goals that identifies what must change to achieve that Vision. Most of Amtrak’s goals as
stated in its Strategic Guidance meet the criteria of being clear, outcome oriented,
measurable, and time-bound. However, there are a couple of exceptions -- Meet National
Needs does not have a measure, and Healthier could be clearer.

Without a clear Vision, it is difficult to assess if the current Goals in Amtrak’s Strategic
Guidance are the most appropriate. For example:
    Should Safety be both a goal and a value?
    Should Greener be a value rather than a goal?
Office of Inspector General
Page 5


        If Amtrak achieves these goals, will it accomplish its Vision/Mission?

Strategies: Strategies identify what must be done to achieve the goals. For most of its
goals, it is not clear that Amtrak has identified comprehensive strategies that it will
follow to achieve the goals. For example:
     There is no clear strategy outlined to Improve Financial Performance beyond
        “ridership growth” and “energy cost reduction”.
     There are no specific initiatives discussed under Improve Customer Service in the
        Strategic Guidance beyond Americans with Disabilities Act compliance efforts.

It also appears that existing programs and activities were slotted to the goals as opposed
to specifically identified or created to support the strategies.

Metrics: Metrics are the indicators of results and they communicate if or to what extent
strategies have delivered the desired outcomes. Metrics also provide the feedback to
keep strategic plans on target.

Some of Amtrak’s metrics are not the most appropriate for the stated goals in Amtrak’s
current plans and not all goals have measures. For example:
     The metrics used to measure Greener are Ridership and Cost per Available Seat
        Mile (CASM). Ridership and CASM can go up or down independently of
        progress towards getting “Greener”. Other possible “green” metrics mentioned in
        the text, such as British Thermal Units/Passenger Mile or Carbon Dioxide (CO2)
        emissions, could have been used.
     On-time Performance is a driver of customer satisfaction not a measure of
        customer satisfaction.
     Host railroad performance is a metric for “Healthier”, but there is no benchmark
        provided.
     No metric is assigned to measure “Meet national needs.”

Programs and Activities: Programs and Activities are products and services that are
aligned to the strategies needed to support the goals. Amtrak has included considerable
detail on the programs and activities designed to achieve the goals. However, without
clear strategies, it is difficult to determine if the Programs and Activities are sufficient
and the most appropriate to achieve the Goals.

Leadership & Ownership: The successful planning and implementation of a strategic
plan requires focus and commitment from the organization’s leadership. Strategic
planning is most effective when done by or with significant input by senior executives
Office of Inspector General
Page 6


and stakeholders. Senior executive and stakeholder involvement helps builds
commitment to the Vision and Goals. Amtrak is creating an Executive Committee
Leadership Team and involving “stakeholders” in the development of the new Vision.
This is clearly a positive step. However, for the plan to be effective there needs to be an
owner of the plan to:
    Facilitate the development of the plan
    Keep the plan updated so that it stays relevant.
Amtrak currently does not have a person or group with this responsibility.

Assessment of the Environment: Understanding the internal and external environment
is critical in any planning process. It is important to know where you are before you can
identify what must change to get to where you want to be. “Successful strategies begin
with leaders who know the strength of the forces in their environment and the
attractiveness of their industry. With this understanding, they can determine how to
compete to win.” 5

Although Amtrak’s leaders have a deep understanding of their environment, this
understanding needs to be captured and used to develop strategies to achieve the Mission
and Vision. It appears that Amtrak’s management has recognized the importance of
assessing the environment as in it’s team charter, Amtrak’s Executive Team assessment
will include “…customers, stakeholders, business partners, competitors, beneficiaries,
etc.”

Values: Values are defined as “The beliefs/behaviors that are central to the
organization’s existence.” These values guide the operations of the organization. It is
just as important not only to determine what the organization does but also how it does it.

From our interview with the Burlington Northern Santa Fe Railway, we found that they
have a Leadership Model built on a culture heavy on adherence to its Core Values.
Through regular training, the Core Values are strongly instilled in all levels of
management, and “No one breaks the rules --- from the Board down.”

Amtrak has articulated a good list of “Corporate Values” in its Strategic Guidance.
However, are these values instilled in Amtrak’s culture? Does Amtrak walk the talk?
What is being done to publicize and promote these values? What happens if these values
are not followed?


5
    Five Forces Model, Building and Sustaining Competitive Advantage, Harvard Business School
Office of Inspector General
Page 7


Communication: Another major element that organizations emphasize as essential to
the success of any strategic plan is Communication. Communication is critical not only
in the development of strategic plans, but also to ensure execution, establish
accountability and commitment, and instill Corporate Values.

Resource & Organizational Alignment: It is important that the organization is aligned
and its resources allocated based on the prioritized set of goals. Unless proper alignment
of the resources (and organization) is done during the strategic planning process, it is
more difficult to achieve the expected outcomes. It is not apparent from the Strategic
Guidance or the FY2010-2014 Five Year Financial Plan that resources (headcount and
funds) were allocated based on prioritized goals or that Amtrak is organized appropriately
to achieve the Mission.


CONCLUSION

Amtrak has struggled over the last several years to implement an effective strategic
planning process. Although it has recently embarked on an attempt to develop and
articulate a future state vision and new organization for Amtrak, the charter for this
initiative does not include the development of an effective strategic planning process and
plan. Based on our observations, Amtrak could benefit from adopting a strategic
planning process that incorporates the key elements of an effective process and
developing a strategic plan.


RECOMMENDATION

We recommend that Amtrak develop a strategic plan utilizing a strategic planning
process that incorporates the key elements of effective strategic planning.


MANAGEMENT’S COMMENTS:

Amtrak Management agreed with our recommendation and committed to preparing a
timeline for the development of a strategic plan by October 19, 2010.

See Appendix 1 for Amtrak Management’s complete response.
Exhibit A
     Amtrak’s
 Strategic Planning
An OIG Perspective

   June 29, 2010

                      1
Background
 In 2005, GAO reported: “Amtrak lacks a meaningful strategic plan
   that provides a clear mission and measurable corporate-wide
   goals, strategies, and outcomes to guide the organization” - GAO-
   06-145.

 Amtrak’s strategic planning 2005-2008:
    Multiple planning documents issued during this time but no
     comprehensive strategic plan.
    Planning department disbanded in 2007.
    Amtrak leadership participated in a detailed SWOT analysis in early
     2008, but no strategic plan resulted from this.

 Amtrak issued the following strategic planning documents in Oct.
   2009:
       Amtrak’s New Mission (Strategic Guidance)
       FY2010-2014 Five Year Financial Plan
                                                                       2
What Amtrak is doing…
 Amtrak is currently establishing an Executive Committee
  Leadership Team “…to create the future service and
  organizational vision for the company.”

      This team is scheduled to attend a UVA “team development
       session” in July.

      Regular meetings have been scheduled to complete an initial report
       by October 15, 2010.

 This is a great move forward; however, identifying Amtrak’s
  vision and future organization are only two elements in an
  effective strategic planning process.



                                                                        3
Purpose

 To share with Amtrak’s management some of the key elements
 of effective strategic planning we gathered from our research.



 “Strategy is about ends and means – where we are going and
 how we are going to get there”
 – Prof. Michael G. Rukstud. Building and Sustaining Competitive Advantage,
 Harvard Business School.




                                                                              4
  Research We Did
 Classes
    The Performance Institute
            Strategic Planning for Government Results
            Developing Performance Measures for Government Results
       American Management Association – Strategic Planning.

 Research
    Current approaches from top business schools
            Building and Sustaining Competitive Advantage – Harvard Business School
            Lawrence G. Hrebiniak, Making Strategy Work, (2005 Wharton School
             Publishing)
       Numerous other materials and books on Strategic Planning

 Interview - VP at BNSF Railroad
    In 2007, BNSF was a winner of the Vision Award, which recognizes
      excellence in business performance and strategic planning.

                                                                                  5
Outline

 Benefits of Strategic Planning

 Key Elements of Effective Strategic Planning

 OIG Observations

 Conclusion

 Recommendations




                                                 6
Benefits of Strategic Planning
     Aligns organizational efforts around a single vision
     Helps leadership to make choices on strategic
      initiatives and determine priorities
     Fosters the development of realistic program and
      project plans
     Increases goal attainment
     Ensures effective use of resources
     Serves as a communication tool for all stakeholders
     Facilitates mid-course correction by focusing on
      end goals

  --------------------------
  Sources: The Performance Institute, AMA
                                                        7
                 Key Elements of
            Effective Strategic Planning
                                                                      Terminology is not
                                                                       consistent among
 There is no one                                                       different sources;




                                  wn rship
                                       hip
                                                                      however, common




                                             Va
   right way to



                                    ers
                               & O ade
                                                                        elements can be




                                             lue
conduct strategic
     planning.                                                       identified among the




                                                s
                                 Le
                                                                     different approaches.




                                                    As
                          n




                                                      se
                         tio




                                                    En
                                                        o
                                                         ss e
                       ica




                                                          vir
                                                          f
                                                            me
                                                            t
                     un




                                                              h
                                                              on


                                                                nt
                    mm




                                                                 me
                                                                    nt
                Co




                                                                                             8
OIG Observations


 Comparing Amtrak’s strategy documents and the
 current intended direction with these “key elements”
 yield the following observations:




                                                        9
Mission
 Mission statements should:

       Clarify the type of business you are in, the customer you serve, the
        purpose of your existence, and (if relevant) the geographic scope of
        your activities.
       Be brief and clear statement or set of statements that define the type
        of work that will be undertaken for whom, for what reason, and
        where.

 Plans based upon a less than clear mission could lead to flawed
   strategies and misdirection of activities throughout the
   organization.
 Amtrak’s mission statement in its Strategic Guidance is fairly
   comprehensive and incorporates the key roles assigned in PRIIA.
       However, the mission statement in the FY2010-2014 Five Year
        Financial Plan is not as comprehensive as the one in the Strategic
        Guidance.                                                          10
Vision
 A Vision identifies where the organization wants to be and what
   results it seeks.
       It should be ambitious and create enthusiasm and commitment.
 A clear Vision is essential to the help identify the goals,
   strategies and corresponding programs and activities that matter
   most to the organization.
 Amtrak’s current planning documents do not appear to have a
   clear Vision.
       The goals suggest a Vision of “improvement in several areas,” but
        without a clear change in direction or focus.
 The charter for the new Executive Committee Leadership Team
   is “…to create the future service and organizational vision for
   the company.”

                                                                            11
Goals
 An effective strategic plan should include a set of goals that
   identifies what must change to achieve the Vision. The goals
   should be:
       Clear,
          outcome oriented,

                time-bound,
                     and measurable.


 Most of Amtrak’s goals as stated in its Strategic Guidance meet
   the criteria of being clear, outcome oriented, measurable and
   time-bound. Exceptions:
       Meet National Needs does not have a measure
       Healthier could be more clear

                                                                   12
Goals

 In addition, without a clear Vision, it is difficult to assess if the
   current goals in Amtrak’s Strategic Guidance are the most
   appropriate.

       Should Safety be both a goal and a value?
       Should Greener be a value rather than a goal?
       If Amtrak achieves these goals, will it accomplish its
        Vision/Mission?




                                                                          13
Strategies
 Strategies identify what must be done to achieve the goals.

 For most of its goals, it is not clear that Amtrak has identified
   comprehensive strategies that it will follow to achieve the goals.

 For example:

       No clear strategy outlined to Improve Financial Performance beyond
        “ridership growth” and “energy cost reduction”.

       No specific initiatives discussed under Improve Customer Service in
        the Strategic Guidance beyond ADA compliance efforts.

       For others, it appears that existing programs and activities were
        slotted to the goals as opposed to specifically identified or created to
        support the strategies.
                                                                             14
Metrics
 Metrics are the indicators of results.

       Metrics communicate if or to what extent strategies have delivered
        the desired outcomes
       Metrics provide the feedback to keep strategic plans on target


 Some of Amtrak’s metrics are not the most appropriate for the
   stated goals in Amtrak’s current plans and not all goals have
   measures




                                                                             15
Metrics
For example:

 The metrics used to measure Greener are Ridership and CASM.
       Ridership and CASM can go up or down independently of progress
        towards getting “Greener”.
       Other possible “green” metrics mentioned in the text, such as
        BTUs/PM or CO2 emissions, could have been used.

 OTP is a driver of customer satisfaction not a measure of
   customer satisfaction.
 Host railroad performance is a metric for “Healthier”, but there is
   no benchmark provided.
 No metric is assigned to measure “Meet national needs.”

                                                                        16
Programs & Activities

 Programs and Activities are products and services that are
   aligned to the strategies needed to support the goals.

 Amtrak has included considerable detail on the programs and
   activities designed to achieve the goals.

 Without clear strategies, it is difficult to determine if the
   Programs and Activities are sufficient and the most appropriate
   to achieve the Goals.




                                                                     17
Leadership & Ownership
 Strategic planning is most effective when done by or with
   significant input by senior executives and stakeholders.

 Senior executive and stakeholder involvement builds commitment
   to the Vision and Goals.

 Amtrak is creating an Executive Committee Leadership Team to
   begin the assessment and to involve “stakeholders” in the
   development of the Vision.
       This is clearly a positive step.

 To be effective, organizations need an owner of the plan to:
    Facilitate the development of the plan
    Keep the plan updated so that it stays relevant.


 Amtrak does not have a person or group with this responsibility.
                                                                 18
Assessment of the Environment
   “Successful strategies begin with leaders who know the
    strength of the forces in their environment and the
    attractiveness of their industry. With this understanding,
    they can determine how to compete to win.”
     –   Five Forces Model, Building and Sustaining Competitive Advantage,
         Harvard Business School.

   The Executive Team assessment will include “…customers,
    stakeholders, business partners, competitors, beneficiaries,
    etc.”
   Amtrak’s leaders have a deep understanding of their
    environment. That understanding needs to be captured and
    used to develop strategies to achieve the Mission and
    Vision.


                                                                             19
Values

 Just as important as what the organization does is
  how they do it.

 Core Values are defined as “The beliefs/behaviors
  that are central to the organization’s existence.”
  These values guide the operations of the
  organization.




                                                       20
Values
 The BNSF’s Leadership Model is built off a culture heavy on
   adherence to its Core Values.
       Through regular training, their Core Values are strongly instilled in
        all levels of management. “No one breaks the rules --- from the
        Board down.”

 Amtrak has articulated a good list of “Corporate Values” in its
   Strategic Guidance.

 However, are these values instilled in Amtrak’s culture?
    Does Amtrak walk the talk?
    What is being done to publicize and promote these values?
    What happens if these values are not followed?



                                                                                21
Communication
 A major element that organizations emphasize as
  essential to the success of any plan is
  communication.

 Communication is critical not only in the development
  of strategic plans, but also to:
    ensure execution
    establish accountability and commitment
    instill Corporate Values




                                                      22
Resource & Organizational Alignments

  Resource alignment is the process of allocating resources
    based on a prioritized set of goals.

  Unless proper alignment of the resources (and
    organization) is done during the strategic planning process,
    it is more difficult to achieve the expected outcomes.

  It is not apparent from the Strategic Guidance or the
    FY2010-2014 Five Year Financial Plan that resources
    (headcount and funds) were allocated based on prioritized
    goals or that Amtrak is organized appropriately to achieve
    the Mission.

                                                                   23
Conclusion
 Amtrak has struggled over the last several years to implement
  an effective strategic planning process.

 It has recently embarked on an attempt to develop and articulate
  a future state vision and new organization for Amtrak.

 The OIG has identified some of the key elements in
  implementing an effective strategic planning process.

 Based on our observations, Amtrak could benefit from adopting
  a strategic planning process that incorporates these key
  elements.




                                                                  24
Recommendations
 Amtrak should revise the Leadership Team Charter to
  incorporate a strategic planning process that includes the key
  elements of an effective strategic planning process.
  Specifically:

      Develop a Mission statement that clearly states the
       fundamental purpose of Amtrak’s existence.
      Develop a Vision (realistic desired future state) for the
       corporation to provide direction as to where it wants to go
       and what results it seeks.
      Perform a thorough assessment of the current environment
       to help develop Goals and Strategies that are aligned to its
       newly developed Vision.


                                                                      25
Recommendations (cont.)

     Develop Goals that clearly define what must change
      (strategically) to achieve the Vision that are clear, outcome
      oriented, time-bound and measurable.
     Develop the Strategies that clearly identify the initiatives,
      programs and activities needed to achieve the Goals.
     Develop appropriate metrics to measure achievement of the
      Goals.
     Develop detailed Programs and Activities identifying who
      does what, when, etc., during the planning process to help
      allocate resources, track and coordinate activities, and
      ensure success of the plan.



                                                                  26
Recommendations (cont.)

     Develop a set of Corporate Values to guide the actions and
      behavior of employees and then take the necessary actions
      to instill the values throughout the corporation.
     Ensure that resources are allocated where they contribute
      the most and the organization is aligned to achieve the
      Vision and Goals of the corporation.
     Ensure that senior leadership and stakeholders are involved
      in the Strategic Planning process and in the development of
      the Strategic Plan.
     Assign a person or a unit to champion the development of
      the plan, monitor its progress, and guide adjustments as
      needed.
     Continually communicate the plan throughout the
      organization to build commitment and ensure effective
      coordination of efforts toward successful plan execution.
                                                                27
                              Exhibit B


OIG Strategic Planning Evaluation Team:

     Calvin E. Evans – Assistant IG for Inspections & Evaluations

     Philip Y. Ong – Chief, Inspections & Evaluations
Appendix 1
                                                    NATIONAL RAILROAD PASSENGER CORPORATION
                                                                                 60 Massachusetts Avenue, NE, Washington DC 20002
                                                                                                  tel 202 906,3960 fax 202 906,2850




                                                                                                                  AIVlTRAK


                                                                                                                °4¥~


   Date   August 16,2010                                      From        Joseph H. Boardman
     To   Ted Alves                                     Department        President and C
                                                            Subject

                                                                   cc




                                                                          DJ Stadtler
                                                                          Jessica Scritchfield



Message   This is management's official response to the orG Evaluation Report No. E-I0-0l, Report on
          Amtrak's Strategic Planning.

          The Office of Inspector General (OIG) draft audit report dated July 27,2010, regarding Amtrak's
          strategic plan provides useful information on which Amtrak management can take action.
          Management agrees with the recommendation to develop a strategic plan utilizing a strategic
          plmming process that incorporates the key elements of effective strategic planning.

          As outlined in the orG's report, Amtrak's management has created an executive leadership group
          as a parallel organization specifically to create the future service and organizational vision for the
          company. This team's initial purpose will be to develop and articulate a future state vision for
          Amtrak as a corporation. While necessarily broad in scope, the vision will provide sufficient
          specificity to guide decisions on market goals and strategies, organizational structure, and the
          aligumentof major corporate systems. This vision will be the first step in a much longer process
          and more detailed process of strategic planning.

          This team has committed to the preparation of an initial report documenting its progress and plan
          by October 19,2010. That report will include a timeline for the development of a Strategic Plan,
          to include the development of Amtrak's refmed Mission, Vision, Goals, and Metrics. It will                 ~
          outline .a timeline for defining the strategies to meet the goals, and processes for reporting our        ~,}..
          results mterually to employees and management and also externally to our stakeholders and              '
          customers. The various steps of this plan will incorporate best practices of"strategic planning and. 1             t, ",
                                                                                         , {," ~             IV, \,~
                                                                                                            ,\(0
                                                                                                Vk1/
          will reflect the observations found in the orG's report.
                                                                         '\ . V ---tW                 {'?':,dI ./~'
                                                        /e                d I 0 -~ d\0 N~1v [;-1
                                                                                    \                                         i

                                                                                                 ~
                                                                         •£/ ~~ ,:1)- II ~I .v; U
                                                                                                          t,
                                                               (
                                                            A\"'\                 WI:: UP "v"1 r
                                                               )/           c.        f   .eCI!                                   '
                                                             ~                                                 jrv/
                                                                        vJt\1' \'I.;J
                                                                           ~,~Q:1 ~~V *     .tiD7,", 12/
                                                                                                              U
